         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Follow-up Inspection on Material
Control and Accountability at
Los Alamos National Laboratory




INS-O-13-04                         July 2013
                                    Department of Energy
                                       Washington, DC 20585


                                             July 18, 2013

MEMORANDUM FOR THE ACTING MANAGER, LOS ALAMOS FIELD OFFICE,
               NATIONAL NUCLEAR SECURITY ADMINISTRATION


FROM:                     Sandra D. Bruce
                          Assistant Inspector General
                            for Inspections
                          Office of Inspector General

SUBJECT:                  INFORMATION: Inspection Report on "Follow-up Inspection on
                          Material Control and Accountability at Los Alamos National Laboratory"

INTRODUCTION AND OBJECTIVE

The Department of Energy's (Department) Los Alamos National Laboratory (Los Alamos) is
managed and operated under contract by Los Alamos National Security, LLC, for the National
Nuclear Security Administration (NNSA). The Los Alamos Field Office is the Federal entity
responsible for administering the contract. This contract requires Los Alamos to follow the
contractually specified directives on Material Control and Accountability (MC&A) when
maintaining certain nuclear materials in support of the Nation's nuclear weapons stockpile
program. Examples of these materials include plutonium and enriched uranium, which are then
subdivided into four categories of accountable nuclear material. Categories I and II materials are
the most attractive for theft or diversion and include pits or other pure products containing
significant quantities of nuclear material. Categories III and IV items are less attractive for theft or
diversion because they contain smaller quantities of nuclear material. MC&A is part of the
Department's safeguards program designed to establish and track nuclear material inventories,
control access to nuclear materials and detect the loss or diversion of nuclear materials. Los
Alamos tracks, manages and controls nuclear materials in 64 Material Balance Areas (MBAs).

Our September 2007 report on Material Control and Accountability at Los Alamos National
Laboratory, (DOE/IG-0774) identified weaknesses regarding the control and accountability of
nuclear materials. Management committed to implementing the report recommendations and to
taking appropriate corrective actions. We initiated this inspection to determine if Los Alamos
implemented the planned corrective actions intended to improve the policies and procedures for
inventory, transfers, characteristics and locations of nuclear materials related to the MC&A
Program.

RESULTS OF INSPECTION

While several corrective actions were completed on the recommendations included in our prior
report, our inspection revealed that Los Alamos continued to experience problems with the
accountability of certain nuclear materials controlled under its MC&A Program. Specifically, our
                                                            2


testing of 15 MBAs revealed instances in which nuclear materials were not maintained in the
correct location, properly labeled or correctly identified in the Los Alamos MC&A database. For
one Category IV1 MBA selected for inventory as part of our follow-up inspection, the Los Alamos
Inventory Team identified several weaknesses with the accountability of certain nuclear materials.
As a result, consistent with the MC&A Program, the MBA account remained locked until
corrective actions could be completed.

The issues we identified occurred, in part, because Los Alamos personnel did not always provide
effective oversight to ensure the control and accountability of nuclear materials. Specifically, Los
Alamos did not ensure that its accounting record system accurately reflected the identity and
location of nuclear materials as required by Department Manual 470.4-6, Nuclear Material
Control and Accountability. We also determined that it was standard practice for Los Alamos
MC&A Group personnel to conduct inventories in the MBAs we reviewed only on a biennial
basis. Based on the issues identified in this report, this periodic oversight was not sufficient to
ensure MBA inventory control and accounting concerns were identified and addressed in a timely
manner. As a consequence, Los Alamos continues to experience location, labeling and MC&A
database issues in a limited number of MBAs.

The quantities of the nuclear materials in question were relatively small and the control and
accounting issues did not involve materials in sufficient quantity, enrichment and/or configuration
to pose a high level of risk. The issues were, however, worthy of correction and could enhance
accounting of higher security category nuclear materials. Accordingly, we made recommendations
designed to assist management with making additional improvements to the Los Alamos MC&A
Program.

MANAGEMENT REACTION

Management generally agreed with the report's findings and recommendations. As appropriate, we
modified our report to address management's comments. The modifications are more fully
discussed in the body of our report.

Management's formal comments are included in Appendix 3.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff




1
  Category IV is the description of the significance of nuclear material based on type, form and amount. It is the least
significant of the four categories.
REPORT ON FOLLOW-UP INSPECTION ON MATERIAL CONTROL AND
ACCOUNTABILITY AT LOS ALAMOS NATIONAL LABORATORY


TABLE OF
CONTENTS


Material Control and Accountability

Details of Finding .............................................................................................................................1

Recommendations ............................................................................................................................3

Management and Inspector Comments ............................................................................................4

Appendices

1. Objective, Scope and Methodology .............................................................................................5

2. Related Reports ............................................................................................................................6

3. Management Comments ..............................................................................................................7
FOLLOW-UP INSPECTION ON MATERIAL CONTROL AND
ACCOUNTABILITY AT LOS ALAMOS NATIONAL LABORATORY ______

MATERIAL CONTROL AND ACCOUNTABILITY

Under the Department of Energy's (Department) Material Control and Accountability (MC&A)
Program, each site/facility is required to establish a sustainable, effective graded safeguards
program for the control and accountability of nuclear materials to detect and deter theft and
diversion, and to prevent the unauthorized control of a weapon, test device, or materials that can be
used to make an improvised nuclear device. As part of the MC&A Program, Los Alamos National
Laboratory (Los Alamos) maintains accountable nuclear materials in 64 Material Balance Areas
(MBAs). MBAs are typically single geographical areas containing integral operations and may
include processing or storage areas.2

Our report on Material Control and Accountability at Los Alamos National Laboratory, (DOE/IG-
0774, September 2007) identified numerous weaknesses with the control and accountability of
certain nuclear materials. While Los Alamos implemented several of the recommended actions in
our report, our inspection revealed that opportunities for further improvements exist with regard to
accounting for certain nuclear material items controlled under its MC&A Program.

Of the 15 MBAs reviewed, one Category IV MBA did not meet the 99 percent accuracy
requirement for the identity and location of nuclear materials as required by Department Manual
470.4-6, Nuclear Material Control and Accountability. Specifically, a total of 1,564 items were
inventoried during the Office of Inspector General physical inventory of all 15 MBAs, and 1,538
accurately reflected the correct item identity and location for a 98.34 percent accuracy rate. In one
Category IV MBA selected for inventory as part of our follow-up inspection, the Los Alamos
Inventory Team identified several weaknesses in the accountability of certain nuclear materials.
As a result, consistent with the MC&A Program, the MBA account remained locked until
corrective actions could be completed.3

                                      Accuracy of MBA Record System

We found that nuclear material in one MBA was not always maintained in the correct location and
that certain nuclear materials were not properly labeled. Department Manual 470.4-6, requires that
the accounting record system accurately reflect the item identity and location for at least 99 percent
of the items selected. Additionally, the Los Alamos Material Control and Accountability Plan
requires responsible MBA personnel to reconcile all physical inventories to ensure that all items
are inventoried in their location of record. All accountability information must be recorded in the
formal Los Alamos Local Area Network Material Accountability System (LANMAS).4


2
  MBAs that are not single geographical areas have been approved by the Field Office in deviation HSS-LANL-10-022,
Single Geographical Area Requirement for an MBA. For cases where MBAs are not single geographical areas,
details describing the situation are documented in the area-specific supplements of the MC&A plan. In no case does an
MBA boundary cross a Material Access Area boundary.
3
  In comments to a draft of this report, management identified one Category I MBA that also did not meet the record
system performance metric.
4
  LANMAS is the Department standard for Nuclear Material Control and Accountability databases and the handling of
related special nuclear material decay calculations.

Page 1                                                                                     Details of Finding
The Office of Inspector General selected this MBA for inventory as part of its follow-up
inspection, and observed the Los Alamos Inventory Team conduct the inventory. During this 100
percent inventory, the Los Alamos Inventory Team identified several MC&A weaknesses. For
example, 5 items were in the wrong location, 1 was labeled with the wrong item identification, 10
labels listed the wrong material type code5, and 3 items were not recorded as intrinsically sealed.6
After completion of the physical inventory, Los Alamos personnel determined that because the
MBA did not meet the 99 percent accuracy performance metric for accounting records systems, the
MBA account remained secure and immediate corrective actions were initiated to locate the
accountable items and correct the item identification problems. According to an official, the MBA
account remained locked, consistent with the MC&A Program requirements, until all issues we
identified were resolved. Officials said that additional oversight activities would be conducted for
this MBA because it failed to meet defined performance requirements, to include conducting a
special inventory and trending to identify systemic issues. The actions taken by Los Alamos
management addressed the weaknesses identified during MBA inventory activities conducted on
June 28, July 12 and September 28, 2012. The Los Alamos MC&A Group told us that it
conducted an external evaluation on October 2, 2012, and reported that all identified MC&A
weaknesses were corrected.

                                  Combining Accountable Nuclear Materials

We found that in two cases, nuclear material items were "physically combined" with other items,
but LANMAS was not updated to reflect the combined material configuration. This resulted in
inaccurate accounting for the items in question. Although, the Los Alamos Inventory Team
determined that two aluminum fuel slats were permanently wedged in a square assembly
administrative changes had not been made to the nuclear material inventory in LANMAS and the
slats remained listed as separate items. This situation was acknowledged by a Los Alamos official
and corrective actions were initiated, resulting in Los Alamos re-measuring the assembly for the
additional nuclear material. The nuclear material of the two items was added to the square
assembly's material quantity for accountability and the two items were then dropped from the
MBA's inventory list as separate items.

The Los Alamos Inventory Team also determined that a lot containing 10 fuel rods was integrated
into an assembly already containing 191 rods, for a total of 201 rods. There were no administrative
transactions noting the change of location and other than varying rod height and tip color, there
were no visual means to determine which rods were associated with each lot. A Los Alamos
official immediately initiated corrective actions to address the situation. In both cases, the MBA
custodian failed to submit LANMAS transactions showing the change in location of the nuclear
material.




5
  Material Type Code is a two-digit number representing the nuclear material, the particular isotope, and the percent of
enrichment.
6
  The Los Alamos MC&A Plan contains a list of the types of containers that are considered to be intrinsically tamper-
indicating. Containers/items considered to be intrinsically tamper-indicating include welded containers.

Page 2                                                                                        Details of Finding
                             Identifying Accountable Nuclear Materials

We determined that nuclear material items were not always uniquely identified. We found 10
documented cases, including 2 that occurred in 2012, in which the same identification numbers
were used. Los Alamos officials indicated that this condition could have occurred because it had
disabled the LANMAS capability that prevented the use of identical alphanumeric characters for
item identification during the transfer of data from Materials Accounting and Safeguards System,
the older database and accounting record system, to LANMAS. Once the data transfer had been
completed, a capability to prevent the use of the same alphanumeric was not reinstated even though
the control could help reduce the opportunity for item misidentification.

Further, we noted that the method used to label nuclear materials did not always ensure that the
items could be readily identified during the inventory process. During our follow-up testing of
control problems identified during our previous inspection, we observed that felt tip pens were still
being used for labeling items, causing difficulty in reading the item identification number. While
this practice may be acceptable when meeting short term needs, in this specific case, a felt tip pen
was used in a glove box in which acetone use was prevalent. This could potentially result in
dissolving part of a character in the required alphanumeric item identification, therefore affecting
the identification of the item.

Contributing Factors and Impact

The issues we identified occurred, in part, because Los Alamos personnel did not always provide
effective oversight to ensure the control and accountability of nuclear materials. Specifically, Los
Alamos did not ensure that its accounting record system accurately reflected the identity and
location of nuclear materials, as required by Department Manual 470.4-6, which affected the
tracking of material inventories. Notably, Los Alamos personnel did not always ensure that the
movement of items within the MBAs was properly documented in LANMAS, or that the labels
accurately reflected the type of nuclear materials. In addition, the failure to utilize the LANMAS
capability that was intended to prevent the use of the same alphanumeric character and the
continued use of felt tip pens during glove box operations also contributed to the weaknesses in the
accountability of certain nuclear materials maintained by Los Alamos. We also determined that it
was standard practice for Los Alamos MC&A Group personnel to conduct inventories in the
majority of MBAs that we reviewed only on a biennial basis. Based on the issues identified in this
report, this periodic oversight is not sufficient to ensure MBA inventory control and accounting
concerns are identified and addressed in a timely manner.

As a consequence of the issues noted, Los Alamos continues to have location, labeling and MC&A
database issues in a limited number of MBAs.

RECOMMENDATIONS

To address the issues identified in this report regarding the control and accountability of nuclear
materials, we recommend that the Manager, Los Alamos Field Office, direct the Los Alamos
National Laboratory to ensure that:

1. The level of oversight for MBAs outside Technical Area-55 is conducted at a frequency
   sufficient to afford full implementation of the Department's MC&A policy regarding the


Page 3                                                                          Recommendations
   identity and location of accountable nuclear materials, and the updating of the LANMAS
   nuclear material databases; and,

2. LANMAS database processes prevent the multiple use of the same alphanumeric character as
   an item identifier.

We recommend that the Chief, Office of Health, Safety and Security, determine whether:

3. MC&A policy should allow for the use of felt tip pens for the labeling of nuclear material
   items, and describe circumstances for use.

MANAGEMENT COMMENTS

Management generally agreed with the report's findings and recommendations. However,
management disagreed with our finding included in our draft report concerning the delayed
implementation of Department Order 474.2, Nuclear Material Control and Accountability, causing
a potential policy gap in this area. Management indicated that it had confirmed, through
independent oversight inspections conducted at NNSA sites in 2012 and 2013, that the delay in
implementing Department Order 474.2 had no adverse impact on NNSA's MC&A programs.

Management's formal comments are included in Appendix 3.

INSPECTOR COMMENTS

Management's comments were generally responsive to our report findings and recommendations.




Page 4                                                                  Management and
                                                                        Inspector Comments
Appendix 1

                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

We initiated this inspection to determine if Los Alamos National Laboratory (Los Alamos)
implemented the recommendations of our 2007 inspection report on Material Control and
Accountability at Los Alamos National Laboratory (DOE/IG-0774) concerning the policies and
procedures for the Material Control and Accountability Program's inventory, transfers,
characteristics and locations of accountable nuclear materials.

SCOPE

We conducted this inspection from May 2012 through July 2013 at the National Nuclear Security
Administration (NNSA) Albuquerque Complex in Albuquerque, New Mexico; and, the Los
Alamos Field Office and Los Alamos National Laboratory, in Los Alamos, New Mexico.

METHODOLOGY

To accomplish the inspection objective, we:

   Reviewed, analyzed and/or collected Department of Energy, NNSA and Los Alamos guidance
   and requirements documents;

   Received informational briefings from the NNSA Los Alamos Field Office and Los
   Alamos personnel;

   Interviewed personnel at the Los Alamos Field Office and Los Alamos; and

   Observed and/or reviewed 15 Material Balance Area judgmental samples or 100 percent
   inventories.

This inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency, Quality Standards for Inspection and Evaluation, January 2012. Those
standards require that we plan and perform the review to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our inspection objective. We
believe the evidence obtained provides a reasonable basis for our findings and conclusion based on
our inspection objective. The inspection included tests of controls and compliance with laws and
regulations to the extent necessary to satisfy the inspection objective. Because our review was
limited, it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our inspection. Also, we assessed the Department's compliance with the
Government Performance and Results Modernization Act of 2010 and determined that the
Department had established appropriate performance measures for Material Control and
Accountability. We relied on computer-processed data to some extent to satisfy our objective. We
confirmed the validity of such data, as appropriate, by conducting interviews and reviewing source
documents.

The Exit Conference with management was held on April 17, 2013.

Page 5                                                     Objective, Scope and Methodology
Appendix 2
                                    RELATED REPORTS

The following reports are related to Material Control and Accountability:

Office of Inspector General

   Inspection Report on Material Control and Accountability at Los Alamos National
   Laboratory (IG-0774, September 2007). The Department of Energy's (Department) Los
   Alamos National Laboratory (Los Alamos) has a national security mission that includes
   responsibility for the science, engineering and technology related to certain radioactive
   materials supporting the Nation's nuclear weapons program. These include materials such as
   plutonium, enriched uranium and depleted uranium. Los Alamos maintains inventories of
   Categories I, II, III and IV accountable nuclear material. Categories I and II materials are
   those that would be most attractive to an adversary intent on theft or diversion. Categories
   III and IV materials are those that would be less attractive because they contain smaller
   quantities of plutonium, uranium or other materials.

   Inspection Report on Material Control and Accountability at Lawrence Livermore National
   Laboratory (IG-0745, November 2006). Lawrence Livermore National Laboratory
   (Livermore) supports the Department's core mission of maintaining a safe, secure, and
   reliable nuclear weapons stockpile and applying scientific expertise toward the prevention of
   the proliferation of weapons of mass destruction and terrorist attacks. Livermore personnel
   perform tests and study various characteristics of nuclear material, to include accountable
   nuclear material, which is a collective term that encompasses all materials so designated by
   the Secretary in quantities that require special control. Examples of these materials include
   plutonium, enriched uranium, americium, and depleted uranium.

Government Accountability Office

   Government Accountability Office Report on Nuclear Security: Better Oversight Needed to
   Ensure that Security Improvements at Lawrence Livermore National Laboratory are Fully
   Implemented and Sustained (GAO-09-321, March 2009). The Department's Office of
   Independent Oversight found numerous and wide-ranging security deficiencies with
   Livermore's safeguards and security program. The Department gave the Laboratory the
   lowest possible rating in two security areas: protective force performance and classified
   matter protection and control. The plan to remove most of Livermore's special nuclear
   material by the end of fiscal year 2012 faces challenges because the plan's schedule depends
   on a number of factors, some of which Livermore does not control, such as the willingness
   and ability of other National Nuclear Security Administration (NNSA) and Department sites
   to receive the material, the timeliness of the effort, adequate funding, and the availability of
   specialized transport trucks operated by NNSA's Office of Secure Transportation to transfer
   material to other Department sites.




Page 6                                                                           Related Reports
Appendix 3


             MANAGEMENT COMMENTS




Page 7                             Management Comments
Appendix 3 (continued)

                     MANAGEMENT COMMENTS




Page 8                                     Management Comments
Appendix 3 (continued)

                     MANAGEMENT COMMENTS




Page 9                                     Management Comments
Appendix 3 (continued)


                     MANAGEMENT COMMENTS




Page 10                                    Management Comments
Appendix 3 (continued)

                     MANAGEMENT COMMENTS




Page 11                                    Management Comments
                                                                    IG Report No. INS-O-13-04




                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
   The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the following
                                                      address:

                      U.S. Department of Energy Office of Inspector General Home Page

                                               http://energy.gov/ig

         Your comments would be appreciated and can be provided on the Customer Response Form.
